No. 19-539
In The

Supreme (Eauri of il\e ^mteb ^inies
Office of Recovery Services,
Petitioner,
V.

John R. Latham,
Respondent.
CERTIFICATE OF SERVICE
I, Ishan K. Bhabha, hereby certify that I am a member of the Bar of this Court,
and that I have this 6th day of December 2019, caused three copies of the Brief In
Opposition to be served via overnight mail and an electronic version of the document to
be transmitted via the Court’s electronic filing system to:
Tyler Green
Utah Solicitor General
350 N. State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
tylergreen@agutah.gov
Counsel for Office of Recovery Services
t

Islkf! K. Bhabha/

s

